DORT FINANCIAL CREDIT UNION
CREDIT CARD ACCOUNT OPENING DISCLOSURES
INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases

10.500 %

APR for Balance Transfers

10.500 %

APR for Cash Advances

10.500 %

How to Avoid Paying Interest
on Purchases

Your due date is at least 26 days after the close of each billing cycle.
We will not charge you interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest
on cash advances and balance transfers on the transaction date.

For Credit Card tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES
Annual Fee

Transaction Fees
International Service Assessment

None

1% of each transaction authorized by a non U.S. (foreign) merchant

Penalty Fees

 Late Payment
 Returned Payment

Up to $25
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases)”. See your account agreement for more details.
.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your account agreement.

Consensual Security Interest: You grant Dort Financial Credit Union a security interest in all
individual and joint share and/or deposit accounts you have with us now and in the future to secure your
credit card account. Shares and deposits in an IRA or any other account that would lose special tax
treatment under state or federal law if given as security, are not subject to the security interest you have
given in your shares. You may withdraw these other shares unless you are in default. When you are in
default, you authorize us to apply the balance in these accounts to any amounts due. For example, if you
have an unpaid credit card balance, you agree we may use funds in your account(s) to pay any or all of
the unpaid balance.

DORT FINANCIAL CREDIT UNION
VISA CREDIT CARD TERMS AND CONDITIONS
AND TRUTH IN LENDING DISCLOSURE
STATEMENT (“AGREEMENT”)
In this Agreement, the words “you” and “your” refer to the
person(s) who are contractually liable for any debt owed under
the Account. If there are two or more such persons, each of them
agrees to be fully liable for any debt owed under the Account
individually (severally) and together (jointly). If joint Account, read
singular pronouns in the plural.
You agree with Credit Union as follows:
Definitions. In relation to your Account and this Agreement, the
following words shall have the meaning indicated:
“Account” means the Visa Credit Card open end line of credit
account approved by Credit Union for your use.
“Agreement” means this Visa Borrower Agreement and the items
referenced in this document.
“Annual Percentage Rate” means the cost of your credit expressed
as a yearly rate as set forth in the letter accompanying this
Agreement when it was provided to you.
“Application” means your request to the Credit Union for the
establishment of an Account in a manner approved by the Credit
Union.
“Authorized User” means any person(s) permitted by you to obtain
credit under your Account, whether or not named in your
Application, or any person(s) to whom you lend your card.
“Billing Cycle” means the time period that expires between
regular Monthly Billing Statements.
“Card” means any Visa Credit Card issued to you by the Credit
Union pursuant to this Agreement which bears the service marks
owned and licensed by Visa USA.
“Cash Advance” means cash credit extended by the Credit Union
to you in the form of a loan of money made when you present the
Card to the Credit Union or to another participating financial
institution, including cash credit extended to you via an
automated teller machine.
“Closing Date” means the date of the last day of a Billing Cycle.
“Credit Limit” means the maximum amount of credit available to
you on your Account as set by the Credit Union from time to time.
Your initial Credit Limit is set forth in the letter accompanying this
Agreement when it was provided to you and which is
incorporated herein.
“Credit Purchases” means extensions of credit from the Credit
Union to you (other than Cash Advances) for Credit Purchases of
merchandise or services through participating merchants,
including mail, electronic or phone purchase orders of
merchandise effectuated by using the account number on a
Card.
“Credit Union” means Dort Financial Credit Union or any other
person or entity to which the Credit Union assigns this Agreement
or any of its rights under this Agreement.
“Finance Charge” means the cost of credit extended to you on
your Account as determined by the Credit Union expressed as a
dollar amount.

“Grace Period” means the time period in which the New Balance
on a Monthly Billing Statement must be paid in full to avoid the
further assessment of a Finance Charge. The Grace Period begins
on the day following the Closing Date of a Billing Cycle and
extends until the Payment Due Date.
“Daily Periodic Rate” means the daily periodic rate set forth in the
letter accompanying this Agreement when it was provided to you.
“Monthly Billing Statement” means the statement sent to you on a
monthly basis reflecting all charges and credits to your Account
for each Billing Cycle.
“New Balance” means the total of the Previous Balance together
with New Credit Purchases, Cash Advances, accrued Finance
Charge and other fees and charges, less payments and credits,
posted to your Account during a Billing Cycle.
“New Credit Purchase(s)” means the Credit Purchase(s) posted to
your Account during the Billing Cycle reflected on your most
recent Monthly Billing Statement.
“Payment Due Date” means the date specified on your Monthly
Billing Statement as the Payment Due Date for payment to the
Credit Union on your Account.
“Preauthorized Charges” means Credit Purchases for which you
have given your preauthorization for a merchant or other person
to debit your Account at specified times.
“Previous Balance” means the balance of your Account at the
beginning of a Billing Cycle, which is the same amount as that
shown on the “New Balance” on your Monthly Billing Statement for
the immediately preceding Billing Cycle.
“Unauthorized Use” means the use of your Card by a person who
does not have actual, implied or apparent authority to use that
Card. If you receive a benefit from the use of a Card by another
or if a Card is used by an Authorized User, such use will not be
regarded as Unauthorized Use.
Account Access. You may access your Account by using your
Card or account number to make Credit Purchases and to obtain
Cash Advances up to your Credit Limit, unless your Account is in
default or has been terminated. If the Credit Union issues you a
Personal Identification Number, you may also use your Card to
obtain Cash Advances via automated teller machines which
accepts your Card for that purpose.
Promise to Pay. You promise to pay to Credit Union all amounts
charged to your Account by you or by any Authorized User who
has access to your Account, with actual, apparent or implied
authority for use of your Account, including Finance Charges and
other fees according to the required minimum monthly payment
schedule. Your liability will extend throughout the term of this
Agreement and until all issued and outstanding Cards are returned
to the Credit Union and all Preauthorized Charges are canceled
by you. If you lend your Card to another person, you will have
given that person actual, implied or apparent authority to use your
Card and you will be liable for all Credit Purchases and Cash
Advances made by that person on your Account until the card is
returned to you or the Credit Union. If more than one person is
obligated under this Agreement, the Credit Union may accept
directions and written notices from any one of those persons
without requiring the consent of any other persons.
Liability for Unauthorized Use. If you notice the loss or theft of your
credit card or a possible unauthorized use of your card, you should
write to us immediately at: Dort Financial Credit Union, P.O. Box
1635, Flint, Michigan 48501-1635 or call us at (8) during
normal business hours or (800)543-5073 (which is available 24 hours
a day). You will not be liable for any unauthorized use that occurs
after you notify us. You may, however, be liable for unauthorized

use that occurs before your notice to us. In any case, your liability
will not exceed $50.
Finance Charge. The Finance Charges shown on your Monthly
Billing Statement are figured by multiplying a Daily Periodic Rate
(see the letter accompanying this Agreement when it was
provided to you for this rate and its corresponding Annual
Percentage Rate) times the Daily Principal Balance of both Credit
Purchases and Cash Advances as follows:
a.

b.

Cash Advances. A Finance Charge will be imposed on
Cash Advances from the date charged to your account.
Finance Charges will continue to accrue until the Closing
Date of the Billing Cycle preceding the date on which
the entire New Balance is paid in full by the Payment Due
Date or until the date of payment if after the Payment
Due Date. The Finance Charge for a Billing Cycle is
computed by applying the Daily Periodic Rate to the
Daily Principal Balance of Cash Advances. Each daily
principal balance of Cash Advances is determined by
adding to the outstanding unpaid balance of Cash
Advances at the beginning of each day of the Billing
Cycle any new Cash Advances posted to your Account
and subtracting any payments as received or credits as
posted to your Account, but excluding any unpaid
Finance Charges and other fees.
Credit Purchases. A Finance Charge will be imposed on
Credit Purchases only if you elect not to pay the entire
New Balance shown on your Monthly Billing Statement for
the previous Billing Cycle by the Payment Due Date (the
time between the issuance of your Monthly Billing
Statement and the corresponding Payment Due Date is
the “Grace Period”). If you elect not to pay the entire
New Balance shown on your previous monthly statement
during the Grace Period, a Finance Charge will be
imposed on the unpaid Daily Principal Balance of such
Credit Purchases from the previous statement Closing
Date and on New Credit Purchases from the date of
posting to your Account during the current Billing Cycle
except that if during the previous billing cycle you paid
all amounts owing in full by the Payment Due Date, then
in the current billing cycle you will have a free interest
period on the amount of the New Balance of Purchases
remaining from the previous billing cycle that is paid by
the Payment Due Date based on our payment allocation
method. Finance Charges will then continue to accrue
until the Closing Date of the Billing Cycle preceding the
date on which the entire New Balance is paid in full by
the Payment Due Date or until the date of payment if
after the Payment Due Date. The Finance Charge for a
Billing Cycle is computed by applying the daily Periodic
Rate to the Daily Principal Balance of Credit Purchases.
Each daily principal balance of Credit Purchases is
determined by adding to the outstanding unpaid
balance of Credit Purchases at the beginning of each
day of the Billing Cycle any New Credit Purchases posted
to your Account, and subtracting any payments as
received and credits as posted to your Account, but
excluding any unpaid Finance Charges and other fees.

Late Charge. If you do not pay at least your minimum monthly
payment by the Payment Due Date shown on your Monthly Billing
Statement, Credit Union may assess your Account a Late Charge
of $25.00 or the amount of your required minimum monthly
payment, whichever is less.
Returned Payment Charge. You will be charged a Returned
Payment Charge for each check, draft or order which you submit
to Credit Union as a payment on your Account which is returned
to Credit Union unpaid in the amount of $20.00 or the amount of
the required Minimum Payment due immediately prior to the date
on which the payment is returned, whichever is less.

International Transaction Fee. Your account may be charged, and
you agree to pay, a 1% INTERNATIONAL SERVICE ASSESSMENT FEE
on any transactions where the merchant country differs from the
country of the card issuer (that is, for any transaction authorized by
a non US (foreign) merchant for both online/internet and card
present transactions. The converted transaction amount will be
shown separately from the International Service Assessment Fee on
your billing statement.
Information Updates. You will provide facts to update information
contained in your original Application or other financial information
related to you at Credit Union’s request.
Credit Limit. You will be notified of your Account’s Credit Limit
which will be applicable to all amounts you owe on your Account
at any time. Credit Union reserves the right to increase or
decrease your Credit Limit without prior notice to you at any time
in its sole discretion. You will keep your unpaid balance within the
Credit Limit as set by Credit Union and you will pay any amount
over your Credit Limit immediately to the Credit Union without
demand, whether or not Credit Union authorized the Credit
Purchase or Cash Advance which caused you to exceed your
Credit Limit. However, if you are over your Credit Limit solely
because the Credit Union reduced it, you may continue to make
only required minimum monthly payments as described in this
Agreement as long as you do not use your card until what you
owe is reduced below your Credit Limit. Even if your unpaid
balance is less than your Credit Limit, the Credit Union may choose
to not make credit available during any time your Account is in
default.
Minimum Monthly Payment. You will pay a minimum monthly
payment equal to the greater of 2.50% rounded up to the next
whole dollar of your Account’s New Balance or $25.00, unless your
New Balance is less than $25.00, in which case your payment will
be that balance. You may pay any amount over your minimum
monthly payment at any time without penalty. In addition to your
minimum monthly payment, you agree to immediately pay to the
Credit Union any amount past due or in excess of your Credit Limit.
Payments must be received by the Credit Union in the manner set
forth on your most current Monthly Billing Statement on or before
the Payment Due Date. All payments must be made in lawful
money of the United States. You will have a payment due every
month on the specified Payment Due Date even if you have paid
more than a regularly scheduled minimum monthly payment at
any previous time.
Monthly Billing Statement. Credit Union will mail you a Monthly
Billing Statement each month in which there is a debit or credit
balance over $1.00, or when a Finance Charge is imposed. Credit
Union need not send you a monthly statement if Credit Union feels
your Account is uncollectible or has started collection proceedings
against you because you defaulted. Except where federal law
requires otherwise, the Monthly Billing Statement will be final as to
the amount owed unless you object in writing within 60 days after
the Credit Union has mailed the Monthly Billing Statement to you.
Your right under federal law to the correction of billing errors is
explained in the notice of Your Billing Rights which appears at the
end of this Agreement.
Security. If you have given the Credit Union a security interest in
any property (other than a dwelling or “household goods” as
defined in the Federal Trade Commission’s Credit Practices Rule) as
part of any other agreement with the Credit Union, that property is
also pledged by you as security for the credit extended under this
Agreement, unless prohibited by law. This provision is the Security
section under the Truth in Lending disclosure of this Agreement as
well as a statement of contract which results in collateral securing
other loans with Credit Union also securing this Agreement. To the
extent permitted by law, you grant Credit Union a purchase
money security interest in all goods you purchase under your
Account to the extent you continue to owe Credit Union for the
purchase of such goods under your Account if such goods are
“household goods”, and to the extent you

continue to owe Credit Union any money under your Account if
such goods are not “household goods”. Further, if you give Credit
Union a specific pledge of other collateral to secure the
repayment of your Account, such as a pledge of your shares or
deposits, then such other collateral will also secure the repayment
of your Account.
Set Off and Lien Impressment. Unless prohibited by law, the Credit
Union shall have the right to set off the amount of any funds you
have in your Accounts with the Credit Union or any other amounts
owed to you by the Credit Union against any amounts charged to
your Account after your Account has been canceled or
terminated. This right of setoff will not extend to any deposits
established under a governmental approved tax deferral deposit
plan such as an I.R.A. or KEOGH account. Credit Union also
impresses a lien upon your shares and dividends and has the right
to enforce that lien in a manner similar to enforcing its right of
setoff.
Application of Payments. The Credit Union reserves the right to
apply the payments to your Account in any manner it may choose
in its sole discretion. Generally, the Credit Union will elect to apply
each payment in the following order: (1) Late fees; (2) other
unpaid fees and charges; (3) unpaid Finance Charges; (4) Credit
Purchases from previous Billing Cycles: (5) Credit Purchases from
this Billing Cycle; (6) Cash Advances as of the closing date of the
last statement and (7) Cash Advances from this Billing Cycle.
Default and Remedy. You will be in default and the Credit Union
may, to the extent permitted by law, terminate your Account and
declare the entire unpaid balance of your Account immediately
due and payable if:
a. You do not make any payment or perform any obligation
under this Agreement or any other agreement that you
have with Credit Union; or
b. You have made a false or misleading statement on your
Application and/or in your representations to Credit
Union while you owe money on your Account; or
c. You should die, or be involved in any bankruptcy,
insolvency, receivership or custodial proceedings
brought by or against you; or
d. A judgment or tax lien should be filed against you or any
attachment or garnishment should be issued against any
of your property or rights, specifically including anyone
starting an action or proceeding to seize any of your
funds on deposit with Credit Union; and/or
e. Credit Union should, in good faith, believe your ability to
repay any indebtedness due under your Account is or
soon will be impaired, time being of the very essence.
If more than one person is obligated under this Agreement, the
Credit Union may proceed with collection action against any one
of the persons obligated under this Agreement without first
proceeding against or collecting from any other person. To the
extent permitted by law, the Credit Union shall be reimbursed by
you for all of its costs and expenses, including actual attorneys’
fees, incurred in the course of collecting any amounts owed on
your Account.
Change of Address. You will notify Credit Union promptly if you
move or otherwise have a change of address.
Foreign Transactions. Transactions occurring outside of the United
States under foreign currency rates will be posted to your Account
in U.S. Dollars and may be more or less than the U.S. Dollar amount
when you made the Credit Purchase or obtained the Cash
Advance, due to changes in the foreign exchange rate. The
conversion rate to U.S Dollars will be at the (i) wholesale market
rate, or (ii)the government mandated rate, whichever is
applicable, in effect one day prior to the processing date.
Refunds and Returns. If a merchant or other person honoring your
Card agrees to give you a refund or adjustment on a Credit
Purchase, you agree to accept a credit to your Account in lieu of
a cash refund or cash adjustment.

Disputes. You agree to make a good faith effort to settle all
disputes concerning Credit Purchases made through the use of
your Card with the merchant or other person honoring the Card.
Except as provided in the notice of Your Billing Rights, you agree to
pay the Credit Union all amounts charged to your Account
despite any such dispute.
Waiver of Claims. You waive and release Credit Union from all
defenses, rights and claims you may have against any person or
company honoring a Card or other access device or not
permitting a Credit Purchase or Cash Advance, except where
such rights cannot be waived under the Fair Credit Billing Act (see
Your Billing Rights). If your Account s available to provide overdraft
protection to a deposit account under a separate Overdraft
Protection Request Agreement, you hold Credit Union harmless
from any and all claims which might otherwise arise if an advance
is not processed to cover an overdraft regardless of whether or not
credit was available under your Account.
Cancellation. You may cancel this Agreement with Credit Union
or revoke any Authorized User’s status at any time by notifying
Credit Union in writing. You understand and agree that Credit
Union has up to ten (10) days after such notice to effectuate your
cancellation or revocation of Authorized User’s status. You remain
obligated to Credit Union for all Credit Purchases or Cash
Advances that the Credit Union is unable to prevent made prior to
or up to thirty (30) days after such cancellation or revocation if you
have not returned all affected Cards, and Credit Union may
declare your balance due and payable together with all
application Finance Charges and other fees and charges;
otherwise you remain obligated to repay any unpaid balance
according to the Agreement.
Amendment. Credit Union may change the terms of this
Agreement by mailing or delivering to you written notice of the
changes as prescribed by the Federal Truth in Lending Act or other
applicable law.
Delay in Enforcement. The Credit Union does not lose any of its
rights under this Agreement if it delays enforcing them.
Effect of Unenforceable Provision. If any provision of this
Agreement is determined to be unenforceable or invalid, all other
provisions shall remain in full force and effect.
Provision Captions. The captions and catch lines used in the
Agreement are for convenience of reference only and in no way
define, limit or describe the scope of intent of any provision of this
Agreement.
Applicability. This Agreement applies to your Visa Credit Card
Account with the Credit Union.
Assignability. You shall have no right to transfer your Account or to
assign this Agreement. The Credit Union, however, shall have the
right to assign and transfer, at any time and in its sole discretion,
this Agreement or any or all of its rights under this Agreement to
any other person or entity.
Ownership of Card(s). Any Card (s) issued in relation to your
Account is the property of the Credit Union and upon demand of
Credit Union, you will surrender it to Credit Union or its authorized
agent or destroy it by cutting it in half.
Skip Payment. At Credit Union’s option, you may be permitted to
skip a minimum monthly payment for one or more months. A fee
will be charged for each skip. Finance Charges will continue to
accrue on your unpaid balance at all times. After the skip, your
next minimum monthly payment will be calculated accordingly to
this Agreement.
Governing Law. Except to the extent that federal law controls, this
Agreement is controlled by the laws of the State of Michigan.

YOUR BILLING RIGHTS
(Keep This Document for Future Use)
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.

WHAT TO DO IF YOU FIND A MISTAKE ON
YOUR STATEMENT
If you think there is an error on your statement, write to us at:
Dort Financial Credit Union
P. O. Box 1635
Flint, Michigan 48501-1635
You may also contact us on the Web: www.Dortonline.org

In your letter, give us the following information:

x
x
x

Account information: Your name and account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe
it is a mistake.

If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent,
and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill
is correct.

YOUR RIGHTS IF YOU ARE DISSATISFIED WITH
YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase.

To use this right, all of the following must be true:
x

You must contact us:

x
x

Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.

x
x

You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

x

WHAT WILL HAPPEN AFTER WE RECEIVE
YOUR LETTER
When we receive your letter, we must do two things:
x

x

Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have
already corrected the error.
Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill is
correct.

While we investigate whether or not there has been
an error:
x

x

x

x

We cannot try to collect the amount in question, or report
you as delinquent on that amount.
The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things
will happen:
x

x

If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.

The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (NOTE:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not
qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Dort Financial Credit Union
P.O. Box 1635
Flint, Michigan 48501-1635
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation, we
will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.

